                                                         NAnONAL SCIENCE FOUNDAnON 

                                                          OFFICE OF INSPECTOR GENERAL 

                                                            OFFICE OF INVESTIGATIONS 


                                                  CLOSEOUT MEMORANDUM

Case Number: A09100077                                                                       Page 1 of 1



     OJG received an allegation that an institution I and the PI' on an NSF award' had violated the Animal \
     Welfare Act. It ",:as further alleged that these issues had been reviewed by the United States            ·.1


     Department of Agnculture and both the PI and the university had paid penalties.                       II

     oIG~ s review ofthe matter co~firmed the al.legations and found that neither the PI nor the institution    III




    had mformed NSF of the anImal welfare Issues that were the source of the violations and were                I

    central to the conduct of the award. OIG concluded that the USDA had exerted appropriate .
    jurisdiction over the m&tter and that the University had failed to comply with the NSF grant I
    condition that specifies that:                                                               .

             Recipients[4] shall immediately notifY the Federal awarding agency of developments that                  i!1



            have a significant impact on the award-supported activities. Also, notification shall be
            given in the case of problems, delays or adverse conditions which materially impair the
            ability to meet the objectives ofthe award. This notification shall include a statement ofthe
            action taken or conte~plated, and any assistance needed to resolve the situation.
                                                                                                5



     In response to OIG's inquiry both the PI and the institution assigned the responsibility for that
     notification to the other party; neither accepted the responsibilities expected ofthem by NSF. OIG
     also learned that the institution's Institutional Animal Care and Use Committee suspended animal
     research late in the course ofthe research award. The PI failed to inform the Program Officer ofthe
     significant problems in completing the award created by the Animal Welfare .violations and the
     suspension. Rather than report work on live animals the PI had reported work extracted from
     videotapes of those animals.

     OIG noted that these incidents occurred over six years ago; since then, significant organizational and
     personnel changes had occurred at the institution and the PI had retired .. As a result, OIG ensured
     that both the PI and the institution understood their obligations. The institution reviewed all its
     current awards to ensure that no significant impediments existed that NSF had not been alerted to.
     The institution revamped its procedures to ensure that its officials and its PIs were aware of their
     respective responsibilities to alert NSF to significant issues.

     This file closed and no further action will be taken.




     4   Typically, and in this case, institutions are the "recipients" of NSF awards.
     5   FDP (May 16, 2000) Article 51
